2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-1039
PENNEAST PIPELINE COMPANY, LLC, PETITIONER
v.
STATE OF NEW JERSEY; NEW JERSEY DEPARTMENT
OF ENVIRONMENTAL PROTECTION; NEW JERSEY
STATE AGRICULTURE DEVELOPMENT COMMITTEE;
DELAWARE & RARITAN CANAL COMMISSION;
NEW JERSEY WATER SUPPLY AUTHORITY;
NEW JERSEY DEPARTMENT OF TRANSPORTATION;
NEW JERSEY DEPARTMENT OF THE TREASURY;
NEW JERSEY MOTOR VEHICLE COMMISSION.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of March, 2020, send out
from Omaha, NE 6 package(s) containing * copies of the BRIEF FOR THE CHAMBER OF COMMERCE OF THE
UNITED STATES OF AMERICA AND THE PENNSYLVANIA CHAMBER OF BUSINESS AND INDUSTRY AS AMICI
CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by
third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
DARYL JOSEFFER
MICHAEL B. SCHON
U.S. CHAMBER LITIGATION
CENTER, INC.
1615 H St., NW
Washington, DC 20062
(202) 463-5948
Counsel for the Chamber of
Commerce of the
United States of America

DEANNE E. MAYNARD
Counsel of Record
MORRISON & FOERSTER LLP
2000 Pennsylvania Ave. NW
Washington, DC 20006
(202) 887-8740
DMaynard@mofo.com
JAMES R. SIGEL
MORRISON & FOERSTER LLP
425 Market St.
San Francisco, CA 94105
Counsel for Amici Curiae

Subscribed and sworn to before me this 23rd day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Notary Public

Affiant

Service list:
Counsel of Record for Petitioner:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
Tel. 202-389-5000
paul.clement@kirkland.com
*3 copies
Counsel of Record for Respondent:
Edward Lloyd
Morningside Heights Legal Services, Inc.
Columbia Law School
435 West 116th Street
New York, NY 10027
Tel. 973-495-3774
elloyd@law.columbia.edu
*3 copies
Counsel for Respondents:
Gurbir S. Grewal
Attorney General of New Jersey

3 courtesy copies to Grewal

Jeremy M. Feigenbaum
1 courtesy copy each for Feigenbaum, Rockwell, Collier
Jason W. Rockwell
Assistant Attorneys General
Mark Collier
Deputy Attorney General
25 Market Street
P.O. Box 093
Trenton, NJ 08625
gurbir.grewal@njoag.gov
jeremy.feigenbaum@njoag.gov
jason.rockwell@njoag.gov
mark.collier@law.njoag.gov

